Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




      COLORADO CLAIMED
    UNALLOWABLE MEDICAID
       NURSING FACILITY
    SUPPLEMENTAL PAYMENTS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General
                                                   for Audit Services

                                                     September 2014
                                                      A-07-14-04215
                      Office of Inspector General
                                         http://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8M of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Colorado claimed $2.5 million in unallowable Medicaid nursing facility supplemental
payments during State fiscal years 2010 and 2011.


WHY WE DID THIS REVIEW

During our audit period (State fiscal years (FYs) 2010 through 2012) (July 1, 2009, through
June 30, 2012), Colorado received more than $128 million in Federal reimbursement for its
Medicaid nursing facility (nursing facility) supplemental payment program. A previous Office
of Inspector General review found that the Colorado Department of Health Care Policy and
Financing (State agency) did not always make Medicaid inpatient hospital supplemental payments
in accordance with Federal and State requirements.

The objective of this review was to determine whether the nursing facility supplemental
payments that the State agency made to nursing facilities during FYs 2010 through 2012 were in
accordance with Federal and State requirements.

BACKGROUND

In Colorado, the State agency is responsible for administering the Medicaid program. It does so
in accordance with a Centers for Medicare & Medicaid Services (CMS)-approved State
Medicaid plan (State plan). Colorado’s State plan provides a framework within which the State
agency can make supplemental payments to nursing facilities, in addition to regular Medicaid
payments, to help offset the costs of care provided to Medicaid beneficiaries. As specified in the
State plan, the State agency calculates the supplemental payments on a prospective basis for the
start of an FY and pays facilities in installments throughout the FY. Furthermore, supplemental
payments to institutional providers for Medicaid services are limited by upper payment limit
(UPLs). A UPL is the ceiling on Federal matching funds paid for all Medicaid payments,
including supplemental payments, and is based on an estimate of what Medicare would pay for
comparable services.

Supplemental payments may include Certified Public Expenditure (CPE) supplemental
payments. A CPE is a statutorily recognized Medicaid financing approach by which a State or
non-State governmental entity, including a governmental provider (e.g., State or county nursing
facility), incurs an expenditure eligible for Federal financial participation (FFP) under the State
plan. The governmental entity certifies that the funds represent expenditures eligible for FFP.
On the basis of this certification, the State agency claims FFP. A State Medicaid agency may
use this financing approach so long as the CPE supplemental payment totals do not exceed
applicable UPLs.

Federal UPL regulations classify institutional providers that furnish inpatient Medicaid services
into three categories: (1) State government-owned or -operated facilities, (2) non-State
government-owned or -operated facilities, and (3) privately owned and operated facilities. The



Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                    i
first two categories may use CPEs in their financing, subject to the conditions set forth in the
previous paragraph.

The State agency claimed Federal reimbursement for supplemental payments to nursing facilities
totaling $228,134,342 ($128,384,674 Federal share) during FYs 2010 through 2012. We
reviewed all of the supplemental payments to nursing facilities for which the State agency
claimed Federal reimbursement during this period.

WHAT WE FOUND

The State agency made nursing facility supplemental payments for FY 2012 in accordance with
Federal and State requirements. However, not all of the nursing facility supplemental payments
that the State agency made to nursing facilities for FYs 2010 and 2011 were allowable. Some
payments were unallowable for the following reasons:

    •   The State agency made supplemental payments to nursing facilities that exceeded the
        calculated prospective payment amounts, resulting in overpayments totaling $1,202,995
        ($740,906 Federal share).

    •   The State agency made CPE supplemental payments to nursing facilities that exceeded the
        applicable UPLs, resulting in overpayments totaling $2,933,689 ($1,729,544 Federal
        share).

    •   The State agency incorrectly included both State government-owned or -operated nursing
        facilities and non-State government-owned or -operated nursing facilities in its UPL
        calculations for privately owned and operated nursing facilities. Because the combined
        payments remained below the UPL for privately owned and operated nursing facilities,
        this error did not result in any overpayments during our audit period. However, the
        potential exists for overpayments in subsequent periods.

On the basis of the results of our review, we determined that under Colorado’s nursing facility
supplemental payment program, the State agency made overpayments to nursing facilities
totaling $4,136,684 ($2,470,450 Federal share) and incorrectly claimed these costs for Federal
reimbursement.

The State agency was not able to able to identify the exact cause of the overpayment, nor was the
overpayment identified when it was made. We believe that the State agency could correct these
types of deficiencies by adjusting its accounting system to capture greater facility-level payment
detail. In addition, the State agency did not follow its State plan methodology so that CPE
supplemental payments did not exceed the UPLs. Further, the State agency did not accurately
identify nursing facilities by category. Therefore, the State agency did not correctly calculate the
privately owned and operated nursing facility UPLs.




Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                   ii
WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $2,470,450 to the Federal Government,

    •   improve policies and procedures to ensure that its accounting system captures sufficient
        facility-level detail to ensure that actual payments do not exceed prospective payments,

    •   strengthen internal controls to ensure that it follows its State plan methodology so that
        CPE supplemental payments made to nursing facilities are equal to or below the
        applicable UPLs in accordance with Federal requirements, and

    •   strengthen internal controls to ensure that it calculates UPLs for the three categories of
        nursing facilities in accordance with Federal and State requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with all of our
recommendations and described corrective actions that it had taken or planned to take.




Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                    iii
                                                     TABLE OF CONTENTS

INTRODUCTION .................................................................................................................1

           Why We Did This Review .........................................................................................1

           Objective ....................................................................................................................1

           Background ................................................................................................................1
                 Medicaid Program ..........................................................................................1
                 Colorado Medicaid Program ..........................................................................1
                 Medicaid Nursing Facility Supplemental Payments ......................................2

           How We Conducted This Review..............................................................................2

FINDINGS .............................................................................................................................3

           Supplemental Payments Exceeded Prospective Supplemental Payment Amounts ...4

           Upper Payment Limits Exceeded...............................................................................4

           Upper Payment Limits Incorrectly Calculated ..........................................................5

RECOMMENDATIONS .......................................................................................................6

STATE AGENCY COMMENTS ..........................................................................................6

APPENDIXES

           A: Audit Scope and Methodology ............................................................................7

           B: Federal and State Plan Requirements Related to
                Medicaid Supplemental Payments ....................................................................9

           C: State Agency Comments ......................................................................................11




Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                                                             iv
                                          INTRODUCTION

WHY WE DID THIS REVIEW

During our audit period (State fiscal years (FYs) 2010 through 2012) (July 1, 2009, through
June 30, 2012), Colorado received more than $128 million in Federal reimbursement for its
Medicaid nursing facility (nursing facility) supplemental payment program. A previous Office
of Inspector General review found that the Colorado Department of Health Care Policy and
Financing (State agency) did not always make Medicaid inpatient hospital supplemental payments
in accordance with Federal and State requirements. 1

OBJECTIVE

Our objective was to determine whether the nursing facility supplemental payments that the State
agency made to nursing facilities during FYs 2010 through 2012 were in accordance with
Federal and State requirements.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State Medicaid plan (State plan). Although the State has considerable flexibility
in designing and operating its Medicaid program, it must comply with applicable Federal
requirements.

States use the standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program (CMS-64 report), to report actual Medicaid expenditures for each
quarter. CMS uses the CMS-64 reports to reimburse States for the Federal share of Medicaid
expenditures. The amounts that States report on the CMS-64 report and its attachments must be
actual expenditures with supporting documentation.

Colorado Medicaid Program

In Colorado, the State agency is responsible for administering the Medicaid program. The
amount that the Federal Government reimburses to the State agency, known as Federal financial
participation (FFP) or Federal share, is determined by the Federal medical assistance percentage
(FMAP), which varies based on a State’s relative per capita income. The State agency’s FMAP
rates ranged from 50.00 to 61.59 percent during our audit period (FYs 2010 through 2012).


1
 Colorado Claimed Unallowable Medicaid Inpatient Supplemental Payments (A-07-13-04206), issued April 7,
2014.


Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                          1
Medicaid Nursing Facility Supplemental Payments

Federal regulations state that Medicaid coverage of nursing facility services is available only for
services provided in nursing homes that the relevant State survey agency has licensed and
certified as Medicaid nursing facilities. Furthermore, CMS program information states that
Medicaid nursing facility services are available only when other payment options are unavailable
and the individual is eligible for the Medicaid program. 2

Colorado’s State plan provides a framework within which the State agency can make
supplemental payments to nursing facilities, in addition to regular Medicaid payments, to help
offset the costs of care provided to Medicaid beneficiaries. As specified in the State plan, the
State agency calculates the supplemental payments on a prospective basis for the start of an FY
and pays facilities in installments throughout the FY. 3 Furthermore, Medicaid payments, which
include supplemental payments, to institutional providers for Medicaid services are limited by
upper payment limits (UPLs). A UPL is the ceiling on Federal matching funds paid for all
Medicaid payments, including supplemental payments, and is based on an estimate of what
Medicare would pay for comparable services (42 CFR §§ 447.272).

Supplemental payments may include Certified Public Expenditure (CPE) supplemental
payments. A CPE is a statutorily recognized Medicaid financing approach by which a State or
non-State governmental entity, including a governmental provider (e.g., State or county nursing
facility), incurs an expenditure eligible for FFP under the State plan. 4 The governmental entity
certifies that the funds represent expenditures eligible for FFP. On the basis of this certification,
the State agency claims FFP. A State Medicaid agency may use this financing approach so long
as the CPE supplemental payment totals do not exceed applicable UPLs (section 1903(w)(6)(A)
of the Act and 42 CFR §447.272(b)(2)).

Federal UPL regulations classify institutional providers that furnish inpatient Medicaid services
into three categories: (1) State government-owned or -operated facilities, (2) non-State
government-owned or -operated facilities, and (3) privately owned and operated facilities. The
first two categories may use CPEs in their financing, subject to the conditions set forth in the
previous paragraph.

HOW WE CONDUCTED THIS REVIEW

The State agency claimed Federal reimbursement for supplemental payments to nursing facilities
totaling $228,134,342 ($128,384,674 Federal share) during FYs 2010 through 2012. We


2
  These requirements appear in 42 CFR § 440.155(a)(2). The CMS program information appears on the CMS Web
site: http://www.medicaid.gov/Medicaid-CHIP-Program-Information/By-Topics/Delivery-Systems/Institutional-
Care/Nursing-Facilities-NF.html (accessed April 25, 2014).
3
    Prospective payment amounts have an FMAP associated with them, such that the Federal share can be determined.
4
 Section 1903(w)(6) of the Social Security Act (the Act) provides the statutory basis for this Medicaid financing
approach.


Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                                  2
reviewed all of the supplemental payments to nursing facilities for which the State agency
claimed Federal reimbursement during this period.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                              FINDINGS

The State agency made nursing facility supplemental payments for FY 2012 in accordance with
Federal and State requirements. However, not all of the nursing facility supplemental payments
that the State agency made to nursing facilities for FYs 2010 and 2011 were allowable. Some
payments were unallowable for the following reasons:

    •   The State agency made supplemental payments to nursing facilities that exceeded the
        calculated prospective payment amounts, resulting in overpayments totaling $1,202,995
        ($740,906 Federal share).

    •   The State agency made CPE supplemental payments to nursing facilities that exceeded the
        applicable UPLs, resulting in overpayments totaling $2,933,689 ($1,729,544 Federal
        share).

    •   The State agency incorrectly included both State government-owned or -operated nursing
        facilities and non-State government-owned or -operated nursing facilities in its UPL
        calculations for privately owned and operated nursing facilities. Because the combined
        payments remained below the UPL for privately owned and operated nursing facilities,
        this error did not result in any overpayments during our audit period. However, the
        potential exists for overpayments in subsequent periods.

On the basis of the results of our review, we determined that under Colorado’s nursing facility
supplemental payment program, the State agency made overpayments to nursing facilities
totaling $4,136,684 ($2,470,450 Federal share) and incorrectly claimed these costs for Federal
reimbursement.

The State agency was not able to able to identify the exact cause of the overpayment, nor was the
overpayment identified when it was made. We believe that the State agency could correct these
types of deficiencies by adjusting its accounting system to capture greater facility-level payment
detail. In addition, the State agency did not follow its State plan methodology so that CPE
supplemental payments did not exceed the UPLs. Further, the State agency did not accurately
identify nursing facilities by category. Therefore, the State agency did not correctly calculate the
privately owned and operated nursing facility UPLs.



Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                   3
SUPPLEMENTAL PAYMENTS EXCEEDED PROSPECTIVE
SUPPLEMENTAL PAYMENT AMOUNTS

Section 1903(a)(1) of the Act authorizes payments to the States of an amount equal to the FMAP
of the total amount expended during the quarter as medical assistance under an approved State
plan. For details on these Federal requirements, see Appendix B.

In FYs 2010 and 2011, the State agency’s actual supplemental payment amounts to nursing
facilities exceeded the State agency’s calculated prospective payment amounts, resulting in
overpayments totaling $1,202,995 ($740,906 Federal share). State agency officials agreed with
us that the difference between the actual supplemental payments and the calculated prospective
payment amounts constituted overpayments and that the overpayments consequently did not
conform to State plan requirements (Colorado State plan, Attachment 4.19D, pages 34 through
39a). For this reason, the overpaid amounts for FYs 2010 and 2011 were not eligible for FFP
and did not meet the requirements of section 1903(a)(1) of the Act. The State agency’s total
calculated prospective payment amounts for nursing facilities for these 2 FYs totaled
$119,607,392. However, the State agency actually paid $120,810,387 in supplemental payments
to these facilities, resulting in overpayments totaling $1,202,995 ($740,906 Federal share).

The State agency was not able to able to identify the exact cause of the overpayment, nor was the
overpayment identified when it was made. We believe that the State agency could correct these
types of deficiencies by adjusting its accounting system to capture greater facility-level payment
detail.

UPPER PAYMENT LIMITS EXCEEDED

Medicaid payments, which include supplemental payments, to institutional providers for
Medicaid services are limited by UPLs. A UPL is the ceiling on Federal matching funds paid for
supplemental payments and is based on an estimate of what Medicare would pay for comparable
services (42 CFR §§ 447.272).

Under Federal UPL regulations, institutional providers that furnish inpatient Medicaid services
are classified into three categories: (1) State government-owned or -operated facilities, (2) non-
State government-owned or -operated facilities, and (3) privately owned and operated facilities
(42 CFR § 447.272). 5 Each of those categories has its own UPL. The State agency’s total
supplemental payments to a group of facilities within each category may not exceed the UPL for
that respective category (42 CFR § 447.272).

The State plan, Attachment 4.19D, page 50, echoes the language of 42 CFR § 447.272 and
specifies that payments to State government-owned or -operated facilities and to non-State
government-owned or -operated facilities may not exceed the UPLs for their respective
categories.

For details on these Federal and State requirements, see Appendix B.

5
    As stated in “Background,” the first two categories qualify for the use of CPEs in their financing.


Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                                  4
In FYs 2010 and 2011, total CPE supplemental payments to State government-owned or
-operated nursing facilities and non-State government-owned or -operated nursing facilities
exceeded their applicable UPLs, resulting in overpayments totaling $2,933,689 ($1,729,544
Federal share). Specifically:

    •   In FYs 2010 and 2011, the State agency’s total CPE supplemental payments to State
        government-owned or -operated nursing facilities were $9,202,594, while the total UPLs
        for these facilities were $8,278,046. Therefore, supplemental payments to State
        government-owned or -operated nursing facilities exceeded the UPLs by $924,548
        ($506,228 Federal share).

    •   In FY 2011, the State agency’s total CPE supplemental payments to non-State
        government-owned or -operated nursing facilities were $2,606,393, while the UPL for
        these facilities was $597,252. Therefore, CPE supplemental payments to non-State
        government-owned or -operated nursing facilities exceeded the UPL by $2,009,141
        ($1,223,316 Federal share).

These overpayments occurred because the State agency did not follow its State plan
methodology so that CPE supplemental payments did not exceed the UPLs. 6

UPPER PAYMENT LIMITS INCORRECTLY CALCULATED

Under Federal UPL regulations, institutional providers that furnish inpatient Medicaid services
are classified into the three categories mentioned above (42 CFR § 447.272). Each of these
categories has its own UPL; the State agency’s total supplemental payments to a group of
facilities within each category may not exceed the UPL for that respective category (42 CFR
§ 447.272). For details on these Federal requirements, see Appendix B.

State agency officials stated that the State agency had incorrectly included some facilities in the
UPL calculations for State government-owned or -operated nursing facilities, as well as non-
State government-owned or -operated nursing facilities in the UPL calculations for privately
owned and operated nursing facilities. Over the course of our 3-year audit period, the State
agency’s UPL calculations for privately owned and operated nursing facilities totaled
$2,567,286,750. This amount represented an overstatement because it incorrectly included
$21,235,740 associated with State government-owned or -operated nursing facilities and non-
State government-owned or -operated nursing facilities. Thus, the State agency’s UPL
calculations for privately owned and operated nursing facilities over the course of our 3-year
audit period should have totaled $2,546,051,010 ($2,567,286,750 minus $21,235,740).




6
 According to State agency officials, and under the State plan methodology, the State agency must calculate the
UPLs on a calendar-year basis rather than an FY basis (State Plan, Attachment 419D, section 7A, page 51). The
State agency did not perform this conversion, and our own calculations (see “Methodology” in Appendix A)
determined that the State agency’s CPE supplemental payments exceeded the UPLs.


Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                                 5
This error occurred because the State agency did not accurately identify nursing facilities by
category. Therefore, the State agency did not correctly calculate the privately owned and
operated nursing facility UPLs.

                                      RECOMMENDATIONS

We recommend that the State agency:

    •   refund $2,470,450 to the Federal Government,

    •   improve policies and procedures to ensure that its accounting system captures sufficient
        facility-level detail to ensure that actual payments do not exceed prospective payments,

    •   strengthen internal controls to ensure that it follows its State plan methodology so that
        CPE supplemental payments made to nursing facilities are equal to or below the
        applicable UPLs in accordance with Federal requirements, and

    •   strengthen internal controls to ensure that it calculates UPLs for the three categories of
        nursing facilities in accordance with Federal and State requirements.

                                  STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with all of our
recommendations and described corrective actions that it had taken or planned to take. The State
agency’s comments appear in their entirety as Appendix C.




Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                    6
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

The State agency claimed Federal reimbursement for supplemental payments to nursing facilities
totaling $228,134,342 ($128,384,674 Federal share) during FYs 2010 through 2012. We
reviewed all of the supplemental payments to nursing facilities for which the State agency
claimed Federal reimbursement during this period.

We did not review the overall internal control structure of the State agency or the Medicaid
program. We reviewed only the internal controls that pertained directly to our objective.

We performed fieldwork at the State agency in Denver, Colorado, from September 2013 to
March 2014.

METHODOLOGY

To accomplish our objectives, we:

    •   reviewed applicable Federal laws, Federal and State regulations, and the relevant portions
        of the CMS-approved Colorado State plan;

    •   held discussions with officials from CMS and the State agency to gain an understanding
        of Colorado’s nursing facility supplemental payment program;

    •   reconciled nursing facility supplemental payments reported on the State agency’s
        CMS-64 reports for FYs 2010 through 2012 to the State agency’s supporting
        documentation;

    •   reviewed the State agency’s UPL calculations and the State agency’s supplemental
        payments calculations;

    •   determined whether the totals of the State agency’s actual nursing facility supplemental
        payments exceeded the totals of the UPLs that the State agency calculated and that we
        adjusted (as necessary) for its nursing facility supplemental payments;

    •   reviewed all Colorado nursing facility supplemental payments to determine whether the
        State agency made the payments correctly in accordance with prospective payment
        calculations;

    •   determined the total overpayments made by the State agency and the Federal share of
        these overpayments; and

    •   discussed the results of our review with State agency officials on April 17, 2014.



Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                     7
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)               8
    APPENDIX B: FEDERAL AND STATE PLAN REQUIREMENTS RELATED TO
                  MEDICAID SUPPLEMENTAL PAYMENTS

FEDERAL REQUIREMENTS

Section 1903(a)(1) of the Act states:

        From the sums appropriated therefor, the Secretary [of Health and Human
        Services] (except as otherwise provided in this section) shall pay to each State
        which has a [State] plan approved under this title, for each quarter, beginning with
        the quarter commencing January 1, 1966—

                (1) an amount equal to the Federal medical assistance percentage (as
                defined in section 1905(b), subject to subsections (g) and (j) of this section
                and subsection 1923(f)) of the total amount expended during such quarter
                as medical assistance under the State plan ….

Section 1903(w)(6)(A) of the Act states:

        Notwithstanding the provisions of this subsection, the Secretary [of Health and
        Human Services] may not restrict States’ use of funds where such funds are
        derived from State or local taxes (or funds appropriated to State university
        teaching hospitals) transferred from or certified by units of government within a
        State as the non-Federal share of expenditures under this title, regardless of
        whether the unit of government is also a health care provider, except as provided
        in section 1902(a)(2), unless the transferred funds are derived by the unit of
        government from donations or taxes that would not otherwise be recognized as
        the non-Federal share under this section.

Federal regulations (42 CFR § 433.51) state:

        (a) Public Funds may be considered as the State’s share in claiming FFP if they
        meet the conditions specified in paragraphs (b) and (c) of this section.

        (b) The public funds are appropriated directly to the State or local Medicaid
        agency, or are transferred from other public agencies (including Indian tribes) to
        the State or local agency and under its administrative control, or certified by the
        contributing public agency as representing expenditures eligible for FFP under
        this section.

        (c) The public funds are not Federal funds, or are Federal funds authorized by
        Federal law to be used to match other Federal funds.




Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                      9
Federal regulations (42 CFR § 447.272) state:

        (a) Scope. This section applies to rates set by the [State Medicaid] agency to pay
        for inpatient services furnished by hospitals [and nursing facilities] … within one
        of the following categories:

                (1) State government-owned or operated facilities (that is, all facilities that
                are either owned or operated by the State).

                (2) Non-State government-owned or operated facilities (that is, all
                government facilities that are neither owned nor operated by the State).

                (3) Privately-owned and operated facilities.

        (b) General rules.

                (1) Upper payment limit refers to a reasonable estimate of the amount that
                would be paid for the services furnished by the group of facilities under
                Medicare payment principles in subchapter B of this chapter.

                (2) Except as provided for in paragraph (c) of this section, aggregate
                Medicaid payments to a group of facilities within one of the categories
                described in paragraph (a) of this section may not exceed the upper
                payment limit described in paragraph (b)(1) of this section.

STATE PLAN REQUIREMENTS

With respect to nursing facility reimbursement, the State plan, Attachment 4.19D,
includes information regarding the calculation of supplemental payments that providers
can receive (pages 34 through 39a).

The State plan, Attachment 4.19D, states (page 50):

        Effective July 1, 2008, public nursing facilities will receive supplemental
        Medicaid payments to provide reimbursement to public providers for
        uncompensated care related to nursing facility services for Medicaid clients, such
        that total payments will not exceed the Medicare Upper Payment Limit for
        nursing facility services by provider class (state-owned and non-state owned
        Government nursing facilities). The nursing facilities Medicare Upper Payment
        Limit will be equal to a reasonable estimate of the amount that would be paid for
        nursing facility services using Medicare cost principles.

The State plan, Attachment 4.19D, section 7A, states (page 51): “Uncompensated costs for
nursing facilities with State fiscal year reporting periods (i.e. July l through June 30) must be
calculated and approximated for the calendar year Payment ….”



Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                     10
                                  APPENDIX C: STATE AGENCY COMMENTS 





                                 COLORADO DEPARTMENT OF HEALTH CARE POLICY & FINANCING
                                1570 Grant Street, Denver, CO 80203-1818 • (303) 866-2993 • (303) 866-4411 Fax • (303) 866-3883 TIY
                                 John W. Hickeolooper, Governor • Susan E. Birch MBA, BSN, RN, Executive Director




            August 15, 2014


            Patrick J. Cogley, Regional Inspector General for Audit Services
            Office of the Inspector General
            Office of Audit Services, Region VII
            601 E. 121h St., Room 0429
            Kansas City, MO 64106


            Mr. Cogley:

            Please see the enclosed document that contains the Department of Health Care Policy and
            Financing's submission of responses to the draft report entitled Colorado Claimed Unallowable
            Medicaid and Nursing Facility Supplemental Payments (Report Number A-07-14-04215).

            If you have any questions or comments, please contact Delora Hughes-Wise, Audit Coordinator at
            3 03-866-415 5 or Delora.hughes-wise@state.co. us

            Sincerely,


            ~
            Susan E. Birch MBA, BSN, RN
            Executive Director

            SB:dhw



            Enclosure




             "The mission of the Department of Health Care Policy & f inancing is to impro'o'e access to   cosH~ffective,   quality heahh ca re servicH (o r C()loradans"
                                                                              c.olorado .gov/ hcpf




Colorado Medicaid Nursing Facility Supplemental Payments (A-0 7-14-04215)                                                                                                   11
                       Department ofHealthCare Policy and Financing's Response to the 

                                  Department of Health and Human Services 

                                         Office of Inspector General 

                 Colorado Claimed Unallowable Medicaid Nursing Facility Supplemental Payments
                                                A-07-14-04215



            Office of the Inspector General's Recommendation:

            We recommend that the State agency
               • refimd $2,470,450 to the Federal Government


            The Department of Health Care Policy and Financing agrees to refund $2,470,450 to the federal
            government by July 2015.




Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                                    12
                       Department ofHealthCare Policy and Financing's Response to the 

                                  Department of Health and Human Services 

                                         Office of Inspector General 

                 Colorado Claimed Unallowable Medicaid Nursing Facility Supplemental Payments
                                                A-07-14-04215




            Office of the Inspector General's Recommendation: 1b

            We recommend that the State agency
               • 	 improve policies and procedures to ensure that its accounting system captures sufficient
                   facility-level detail to ensure that actual payments do not exceed prospective payments,


            The Department agrees to add codes to its accounting system for each supplemental payment type
            to capture greater facility-level payment detail and this will be implemented by January, 2015.




Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                                      13
                       Department of HealthCare Policy and Financing's Response to the 

                                  Department of Health and Human Services 

                                         Office of Inspector General 

                 Colorado Claimed Unallowable Medicaid Nursing Facility Supplememal Payments
                                                A-07-14-04215




           Office of the Inspector General's Recommendation lc

            We recommend that the State agency
               • 	 strengthen internal controls to ensure that it follows its State plan methodology so that CPE
                   supplemental payments made to nursing facilities are equal to or below the applicable UPLs
                   in accordance with Federal requirements


           The Department has developed and documented its internal processes to ensure that payments are
           made according to the approved Medicaid State Plan and within the calcul ated upper payment
           limits (UPLs).




Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                                           14
                       Department ofHealthCare Policy and Financing's Response to the 

                                   Department of Health and Human Services 

                                          Office of Inspector General 

                 Colorado Claim ed Unallowable Medicaid Nursing Facility Supplemental Paym ents
                                                 A-07-14-04215



           Office of the Inspector General's Recommendation ld

            We recommend that the State agency
               • 	 strengthen internal controls to ensure that it calculates UPLs for the three categories of
                   nursing facilities in accordance with Federal and State requirements.


           The Department agrees to improve its internal review processes to ensure that upper payment
           limits (UPLs) are calculated such that state government-owned, non-state government-owned, and
           private-owned nursing facilities are included in the correct UPL category. This will be
           implemented by January, 2015.




Colorado Medicaid Nursing Facility Supplemental Payments (A-07-14-04215)                                        15
